OIG Audit Report GR-30-01-003
Office of Community Oriented Policing Services Grants
 to the Metropolitan Police Department,  District of Columbia
Audit Report GR-30-01-003   
December 29, 2000
Office of the Inspector General

Executive Summary
On September 14, 1999, the Office of the Inspector General, Audit Division, issued a warning letter (See Attachment II) on grants awarded to the Metropolitan Police Department of the District of Columbia (MPD) by the Office of Community Oriented Policing Services (COPS).  The purpose of the letter was to advise the COPS Office that the MPD could not provide us with critical grant records, and that if these records were not made available to us, we would question the funds received by the grantee as unsupported.  After performing extensive reviews of the records provided by the MPD as a result of our warning letter, we have determined that the records were not sufficient to allow us to continue the audit.  

	The MPD was awarded a Making Officer Redeployment Effective (MORE) 1995 grant totaling $6,061,806 to hire 56 civilians and purchase equipment that was to result in the total redeployment of 364 officer full-time equivalent (FTE) positions.  The MPD was also awarded a MORE 1996 grant totaling $4,798,878 to purchase equipment that was to result in the redeployment of 157.4 FTE positions. 1
Grant guidelines require that each grantee establish and maintain an accounting and financial records system to account accurately for funds awarded.  Such a system should:

present and itemize approved costs of salaries and benefits, and show the actual costs of salaries and benefits;  

	assure responsible use of grant funds; 

	assure that funds are spent in conformance with the grant conditions; and 

	provide the necessary information for periodic review and audit.

A portion of the MORE 1995 grant was to be used to pay for the salaries and fringe benefits of civilians; however, the MPD was unable to provide us with a complete and accurate list of all grant-funded civilians.  We reviewed various listings of grant funded civilians and found that the civilians identified as grant-funded were inconsistent from list to list.  In addition, critical information on these lists were either:  (1) missing, e.g., social security numbers, job series, salary information, appointment and separation dates; or (2) conflicting, e.g., civilians were listed more than once with different social security numbers, salaries, appointment dates, and job titles.  Further, we attempted to perform detailed testing of some of the civilians on the lists; however, the MPD could not always provide us with time and attendance records.  As a result, we could not determine if the MPD was spending grant funds related to the civilians in compliance with the grant terms and conditions.  

	The remaining portion of the MORE 1995 grant was to be used to pay for equipment and technology purchases.  The MPD provided us a list of equipment and technology purchases funded with MORE 1995 grant funds.  We sampled 14 of these purchases, which represented 91 percent of the associated dollar value listed, to determine if the list was reliable and whether the purchases were in compliance with the terms and conditions of the grant.  We found that despite identifying in its grant application that a portion of the grant funds would be used to acquire a Reverse 911 system, the MPD instead used $32,500 in grant funds to purchase pagers.  According to COPS' Grant Monitoring Standards and Guidelines for Hiring and Redeployment, MORE grant funds may not be used to purchase pagers.  Further, the MPD was unable to provide us supporting documentation for expenditures on training ($1,000) and consulting services ($79,000).
 
We further found that the MPD, despite being reimbursed the entire MORE 1995 grant amount of $6,061,806, had not developed a plan showing how it was going to track the redeployment of officer FTEs into community policing.  According to COPS' Grant Monitoring Standards and Guidelines for Hiring and Redeployment, this tracking plan should be developed as soon as possible during the grant award period. 2   Without the tracking plan, there is an increased risk that more than $6 million could be misallocated and that the MPD might not redeploy the number of officer FTE's provided for by the grant. 3
We made every effort to complete an audit based on the information provided by the MPD.  We performed multiple independent assessments of the data to determine if it would be possible to render an opinion other than this disclaimer.  Unfortunately, that was not possible.  Therefore, due to the aforementioned conditions, we are questioning, as unsupported, the entire amount of the MORE 95 grant ($6,061,806). 


Footnotes

Because the MPD did not maintain adequate records to allow us to audit the MORE 95 grant, we did not expand our audit scope to the MORE 96 grant and our audit makes no conclusions with respect to the MORE 96 grant.

The MORE 95 grant was awarded July 1, 1995.

Despite not having a redeployment-tracking plan, the MPD provided us with a list of 53 officers who, according to the MPD, had been redeployed as a result of the MORE 95 grant.  We found that of the 53 officers: 1 was deceased, 10 were retired, and 13 were no longer with the MPD.